UNITED STATES OF AMERICA
FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

 

Division of Marketing Practices

Craig Tregillus Direct Dial: (202) 326-2970
ctregillus @ftc.gov Facsimile: (202) 326-3395

August 21, 2007

T. Scott Gilligan, Esq.
Gilligan Law Offices
3734 Eastern Ave.
Cincinnati, OH 45226

Dear Mr. Gilligan:

This letter responds to your inquiry about a prior staff opinion interpreting the FTC
Funeral Rule (“Rule”) which concluded, inter alia, that a funeral provider may not charge a
storage fee if a third party casket is delivered “several days before it is needed for a visitation or
funeral service.”! You ask whether the opinion applies only to “at need” arrangements made
after a death, as it indicates, or whether the same reasoning would also apply to prohibit a storage
fee if a third party casket were delivered shortly after “pre-need” funeral arrangements are made
by a consumer who “would not need the casket for some indeterminate time.”

The prior opinion was based on the prohibition in section 453.4(b)(1)(ii) of the Rule
which bars funeral providers from charging “any fee as a condition to furnishing any funeral
goods or funeral services to a person arranging a funeral” other than the basic services fee,
payments for the funeral goods and services selected, and payments for items required to meet
legal, cemetery or crematory requirements.” A related “safe harbor” provision in section
453.4(b)(2)(ii) of the Rule provides, however, that “[a] funeral provider shall not violate this
section by failing to comply with a request for a combination of goods or services which would
be impossible, impractical, or excessively burdensome to provide.”*

It is staff’s opinion that a request for free storage of a third party casket made in
connection with pre-need arrangements would be “excessively burdensome.” Consequently, a
funeral provider would be protected by the safe harbor provision from liability for violating the
Rule by “failing to comply” with such a request and refusing to store a third party casket for free
for some indeterminate time.

' Staff Opinion to Joseph J. DellaVecchia, Jr. July 12, 2007) at 1, available at
http://www. ftc.gov/bcp/conline/edcams/funerals/opinions/opinion07-4.pdf.

2 16 C.F.R. § 453.4(b)(1)(ii) (emphasis added).

3 16 CFR. § 453.4(b)(2)(ii).
T. Scott Gilligan, Esq.
Gilligan Law Offices
Page 2 of 2

As you know, the views expressed in this letter are those of FTC staff. They have not
been reviewed, approved or adopted by the Commission, and they are not binding on the
Commission or any individual Commissioner. However, they do reflect the views of FTC staff
charged with enforcement of the Funeral Rule. Staff Funeral Rule opinions are routinely posted
on the FTC website at http://www.ftc.gov/bcp/conline/edcams/funerals/staffopinions.shtm.

Sincerely,
Is/

Craig Tregillus
Funeral Rule Coordinator
